APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Judgment in the United States Court
of Appeals for the Federal Circuit
(January 15, 2019) . . . . . . . . . . . . App. 1
Appendix B Partial Judgment Pursuant to Fed. R.
Civ. P. 54(b) in the United States
District Court for the Central District
of California
(December 21, 2017) . . . . . . . . . . . App. 3
Appendix C Order Regarding Plaintiff’s Motion for
Reconsideration of Order Granting
Partial Motion for Summary
J u d g m e n t of I nv a l i d i t y , o r
Alternatively for an Order to Sever
Patent Counts (I-IV) from Non-patent
Counts (V-XV) (Dkt. 327) in the
United States District Court for the
Central District of California
(December 7, 2017) . . . . . . . . . . . . App. 6
Appendix D Order Regarding Defendants’ Motion
for Partial Summary Judgment as to
Invalidity (Dkt. 161) in the United
States District Court for the Central
District of California
(July 13, 2017) . . . . . . . . . . . . . . App. 27

ii
Appendix E Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Federal Circuit
(March 21, 2019) . . . . . . . . . . . . . App. 44

App. 1

APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1428
[Filed January 15, 2019]
_____________________________________________
POWER ANALYTICS CORPORATION,
)
Plaintiff-Appellant
)
)
v.
)
)
OPERATION TECHNOLOGY INC, DBA
)
ETAP, SCHNEIDER ELECTRIC USA, INC.,
)
Defendants-Appellees
)
)
OSISOFT, LLC,
)
Defendant
)
____________________________________________ )
Appeal from the United States District Court for the
Central District of California in No. 8:16-cv-01955JAK-FFM, Judge John A. Kronstadt.
JUDGMENT
ROBERT F. RUYAK, RuyakCherian LLP, Washington,
DC, argued for plaintiff-appellant. Also represented by
AMADOU KILKENNY DIAW; KORULA T. CHERIAN,

App. 2
Berkeley, CA; JERROLD GANZFRIED, Ganzfried Law,
Washington, DC.
JOHN D. VANDENBERG, Klarquist Sparkman, LLP,
Portland, OR, argued for all defendants-appellees.
Defendant-appellee Operation Technology, Inc. also
represented by SARAH ELISABETH JELSEMA, SALUMEH
R. LOESCH.
REGINALD J. HILL, Jenner & Block LLP, Chicago, IL,
for defendant-appellee Schneider Electric USA, Inc.
Also represented by BENJAMIN J. BRADFORD, LISA
MARIE SCHOEDEL; ADAM G. UNIKOWSKY, Washington,
DC.
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (DYK, WALLACH, and CHEN, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
January 15, 2019
Date
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 3

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF
CALIFORNIA
Case No. 8:16-CV-1955-JAK-FFM
[Filed December 21, 2017]
____________________________________
POWER ANALYTICS
)
CORPORATION,
)
Plaintiff,
)
)
v.
)
)
OPERATION TECHNOLOGY, INC. )
d/b/a ETAP; OSISOFT, LLC; and
)
SCHNEIDER ELECTRIC USA, INC., )
Defendants.
)
___________________________________ )
PARTIAL JUDGMENT PURSUANT
TO FED. R. CIV. P. 54(b)
On October 27, 2016, Plaintiff Power Analytics
Corporation (“Power Analytics”) brought this action
asserting four causes of action for patent infringement
(Counts I-IV) against Defendants Operation
Technology Inc. d/b/a ETAP (“ETAP”) and Schneider
Electric USA, Inc. (“Schneider”) and 11 non-patent
causes of action (Counts V-XV) against ETAP,
Schneider, and OSIsoft, LLC. All 15 of these claims

App. 4
were also pleaded in the operative Second Amended
Complaint.
ETAP and Schneider brought a motion for summary
judgment as to Counts I-IV, which was granted on July
11, 2017. Plaintiff’s motion for reconsideration of that
order was denied on December 7, 2017. Plaintiff
alternatively moved for the entry of a partial judgment
as to Counts I-IV. In the interests of justice, and in
light of the legal and factual distinctions among the
matters presented by Counts I-IV and Counts V-XV,
Counts I-IV were severed and the request for the entry
of partial judgment pursuant to Fed. R. Civ. P. 54(b)
was granted.
NOW, THEREFORE, IT IS ORDERED, ADJUDGED,
and DECREED as follows:
1. Claims 1-42 of U.S. Patent No. 7,693,608 are
invalid pursuant to 35 U.S.C. § 101;
2. Claims 1-23 and 25-26 of U.S. Patent No.
7,729,808 are invalid pursuant to 35 U.S.C.
§ 101;
3. Claims 1-21 of U.S. Patent No. 7,286,990 are
invalid pursuant to 35 U.S.C. § 101;
4. Claims 1-29, 34-37, 39-40, 42-55, and 57 of U.S.
Patent 7,840,395 are invalid pursuant to 35
U.S.C. § 101.
5. Judgment is entered in favor of ETAP and
Schneider as the Defendants, and against Power
Analytics, as the Plaintiff, solely as to Counts I-

App. 5
IV of the Second Amended Complaint. Plaintiff
shall take nothing as to Counts I-IV.
IT IS SO ORDERED.
Dated: December 21, 2017
/s/ John A. Kronstadt
JOHN A. KRONSTADT
UNITED STATES DISTRICT JUDGE

App. 6

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. SA CV16-01955 JAK (FFMx)
[Filed December 7, 2017]
Date December 7, 2017
Title Power Analytics Corporation v. Operation
Technology, Inc., et al.
CIVIL MINUTES – GENERAL
Present: The Honorable JOHN A. KRONSTADT,
UNITED STATES DISTRICT JUDGE
Andrea Keifer
Deputy Clerk
Attorneys Present
for Plaintiffs:
Not Present

Not Reported
Court Reporter / Recorder
Attorneys Present
for Defendants:
Not Present

Proceedings:
(IN CHAMBERS) ORDER RE PLAINTIFF’S
MOTION FOR RECONSIDERATION OF
ORDER GRANTING PARTIAL MOTION FOR
SUMMARY JUDGMENT OF INVALIDITY, OR
ALTERNATIVELY FOR AN ORDER TO
SEVER PATENT COUNTS (I-IV) FROM NONPATENT COUNTS (V-XV) (DKT. 327)

App. 7
I.

Introduction

Power Analytics Corporation (“Plaintiff”) brought
patent infringement claims against Operation
Technology, Inc. d/b/a ETAP and Schneider Electric
USA, Inc. (collectively, “Defendants”).1 On July 13,
2017, an order issued on Defendants’ Motion for Partial
Summary Judgment (“MSJ Order” (Dkt. 300)). It
granted that motion after determining that all asserted
claims of U.S. Patent 7,693,608 (“the ’608 Patent”),
U.S. Patent No. 7,729,808 (“the ’808 Patent”), U.S.
Patent No. 7,286,990 (“the ’990 Patent”), and U.S.
Patent 7,840,395 (“the ’395 Patent”) (collectively,
“Asserted Patents”) are invalid pursuant to 35 U.S.C.
§ 101.
On August 10, 2017, Plaintiff filed a “Motion for
Reconsideration of Order Granting Partial Motion for
Summary Judgment of Invalidity, or Alternatively for
an Order to Sever Patent Counts (I-IV) from NonPatent Counts (V-XV)” (“Motion” (Dkt. 327)). On
August 22, 2017, Plaintiff submitted supplemental
authority in support of the Motion, citing Visual
Memory LLC v. NVIDIA Corp., 867 F.3d 1253 (Fed. Cir.
2017). Dkt. 333. On August 28, 2017, Defendants
responded to the Motion (Dkt. 334), and on September
8, 2017, Plaintiff filed a Reply (Dkt. 341). A hearing on
the Motion was held on October 2, 2017, and the
matter was taken under submission. Defendants
subsequently submitted supplemental authority in

1

Plaintiff brought certain non-patent claims against OSISoft, LLC.
Those claims are not at issue in connection with the matters
addressed in this Order.

App. 8
support of their opposition to the Motion, citing
Secured Mail Sols. LLC v. Universal Wilde, Inc., 873
F.3d 905 (Fed. Cir. 2017). Dkt. 350. Plaintiff then filed
a response. Dkt. 352.
For the reasons stated in this Order, and in the
MSJ Order, which is incorporated by this reference, the
Motion is DENIED, and the alternative request to
sever the patent claims is GRANTED.2
II.

Analysis
A. Legal Standards

Fed. R. Civ. P. 59(e) provides that a party may file
a “motion to alter or amend a judgment.” Such a motion
is appropriate, “1) if such motion is necessary to correct
manifest errors of law or fact upon which the judgment
rests; (2) if such motion is necessary to present newly
discovered or previously unavailable evidence; (3) if
such motion is necessary to prevent manifest injustice;
or (4) if the amendment is justified by an intervening
change in controlling law.” Allstate Ins. Co. v. Herron,
634 F.3d 1101, 1111 (9th Cir. 2011).
Local Rule 7-18 provides similar standards:
A motion for reconsideration of the decision on
any motion may be made only on the grounds of
(a) a material difference in fact or law from that
presented to the Court before such decision that
in the exercise of reasonable diligence could not
have been known to the party moving for
2

Defendants’ motions to dismiss the non-patent claims (Dkts. 303,
304) are addressed in a separate order. Dkt. 361.

App. 9
reconsideration at the time of such decision, or
(b) the emergence of new material facts or a
change of law occurring after the time of such
decision, or (c) a manifest showing of a failure to
consider material facts presented to the Court
before such decision.
The Rule also provides that, “[n]o motion for
reconsideration shall in any manner repeat any oral or
written argument made in support of or in opposition
to the original motion.” Id.
A motion for reconsideration is an “extraordinary
remedy, to be used sparingly in the interests of finality
and conservation of judicial resources.” Kona Enters.,
Inc. v. Estate of Bishop, 229 F.3d 877, 890 (9th Cir.
2000) (citations omitted).
B. Application
1. Motion for Reconsideration
Plaintiff advances several arguments in support of
the Motion. First, that the MSJ Order failed to apply
the governing “clear and convincing” standard in
evaluating evidence submitted to prove a patent is
invalid. Dkt. 327 at 2–3. Second, that the MSJ Order
included and relied upon an improper, “undisclosed
claim construction.” Id. at 7–8; 15–16. Third, that it
failed to evaluate the claims in light of the
specifications. Id. at 9–13. Fourth, that it misapplied
the governing law that applies to a patentability
analysis under § 101. Id. at 13–15; 16–22. Finally, that
the MSJ Order improperly identified a single claim as
representative of the 138 claims at issue. Id. at 22–23.
These issues are addressed in this sequence.

App. 10
a) Clear and Convincing Evidence
Plaintiff argues both that the clear and convincing
standard was not applied, and that Defendants “did not
even attempt” to meet their initial, related burden of
establishing the absence of a genuine issue of material
fact. Dkt. 327 at 3. Plaintiff acknowledges that
questions of patentability under § 101 present legal
issues, but relies on Ultramercial, Inc. v. Hulu, LLC,
722 F.3d 1335, 1339 (Fed. Cir. 2013) judgment vacated
by WildTangent, Inc. v. Ultramercial, LLC, 134 S. Ct.
2870 (2014), for the proposition that the determination
“is rife with underlying factual issues.” Id. at 1339.
In general, the party asserting invalidity has the
burden of proving the applicable factual elements by
clear and convincing evidence. Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91, 95 (2011). However, as noted,
whether a patent is viable under § 101 is ultimately a
question of law. Intellectual Ventures I LLC v. Capital
One Fin. Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017)
(“Patent eligibility under § 101 is an issue of law that
[the Federal Circuit] review[s] without deference.”).
Here, Plaintiff has not identified what specific
questions of material fact were presented by the motion
for summary judgment that resulted in error in the
MSJ Order. This is significant because Defendants
submitted a “Statement of Undisputed Facts,” in
support of the motion for summary judgment, stating
that “[n]o genuine issue exists regarding any material
fact.” Dkt. 162-1. Plaintiff’s Responsive Statement did
not identify any disputed material facts. Dkt. 181-14.
Therefore, it was not necessary for the MSJ Order to
recite the evidentiary standard; the core facts were

App. 11
undisputed. Plaintiff’s failure to identify any disputed,
material facts also undermines its claim that the MSJ
Order reflects error because Defendants failed to
satisfy their initial burden of showing an absence of
disputed material facts. See Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). That Plaintiff disagrees with
the MSJ Order, and describes its analysis of legal
issues as reflecting “factual errors” does not change the
outcome. See Secured Mail Sols. LLC v. Universal
Wilde, Inc., 873 F.3d 905, 912 (Fed. Cir. 2017) (in
reviewing a ruling on a motion to dismiss, claims may
be deemed patent-ineligible “based on the intrinsic
evidence from the specification without need for
‘extraneous fact finding outside the record’”).
Moreover, to the extent that Plaintiff relies on facts
that were not previously offered in opposition to the
motion for summary judgment, it has not explained
why, in the exercise of reasonable diligence, these facts
could not have been presented in its original opposition
to that motion. See L.R. 7-18(a). For example, in
support of the Motion, Plaintiff proffers the declaration
of Dr. Tong. It compares the claims at issue in this
action and those addressed in Electric Power Group,
and addresses whether the Asserted Patents include
inventive concepts. See Dkt. 327 at 9–15 (citing Dkt.
327-1 (“Tong Decl.”)). There is no showing that this
analysis could not have been timely submitted.
Further, this evidence is unnecessary in light of the
intrinsic record, which includes the patent claims,
specifications, and prosecution history, that was
considered in connection with the motion for summary
judgment. Secured Mail Sols. LLC, 873 F.3d at 912.

App. 12
b) C l a i m
Construction
Characterization

and

As to an “undisclosed claim construction,” Plaintiff
does not argue that the Order construed a particular
claim term from the Asserted Patents. Instead, it
claims that the analysis of the text of the claims in the
Asserted Patents constituted an impermissible claim
construction. Dkt. 341 at 3 (citing MSJ Order at 5 (“the
claims recite the idea as a function or result, rather
than a particular way of performing that function or
achieving that result.”)). Plaintiff adds that “[w]hether
the claims recite a particular manner of performing
any functions recited therein is a claim construction
issue that was not before the Court on Defendants’
§ 101 motion.” Dkt. 341 at 3–4.
Patentability determinations require a review and
analysis of claim language as a matter of law. See Alice
Corp. Pty. v. CLS Bank Int’l, 134 S. Ct. 2347, 2355
(2014) (courts must “determine whether the claims at
issue are directed to [a] patent-ineligible concept[]”).
The MSJ Order concluded that claim construction was
not necessary in order to review the claims under
§ 101. If accepted, Plaintiff’s contrary argument would
expand the definition of claim construction to include
whenever a claim is reviewed as part of assessing its
meaning. If such a rule were adopted, a motion to
dismiss under Fed. R. Civ. P. 12(b)(6) would not be
viable. This is inconsistent with the present law on that
issue. See, e.g., FairWarning IP, LLC v. Iatric Sys., Inc.,
839 F.3d 1089, 1092 (Fed. Cir. 2016); Internet Patents
Corp. v. Active Network, Inc. et al., 790 F.3d 1343, 1345
(Fed. Cir. 2015); OIP Tech. Inc. v. Amazon.com, Inc.,

App. 13
788 F.3d 1359, 1362 (Fed. Cir. 2015); Coffelt v. NVIDIA
Corp., 680 Fed. App’x. 1010, 1011 (Fed. Cir. 2017);
Evolutionary Intelligence LLC v. Sprint Nextel Corp.,
677 F. App’x 679, 680 (Fed. Cir. 2017).
The “impermissible claim construction” argument is
tied to Plaintiff’s assertion that the MSJ Order erred
by characterizing the claims at a high level of
abstraction. Dkt. 327 at 15. The MSJ Order did not do
so. Rather it began the analysis by summarizing the
general characterization of the claims by the parties:
• Plaintiff: “compare predicted calculated
values generated by the virtual system model
against real-time data received from the
sensors, updating the virtual system model
when the difference exceeds a threshold, to
ensure that the virtual system model reflects
the system’s real-time operation.” Dkt. 181 at
3.
• Defendants: “the idea of comparing live (realtime) data to predicted data to interpret a
monitored system’s health and performance
(e.g., identify an alarm condition) and,
depending on the level of deviation, to update
the prediction model (e.g., by ‘calibration’ or
‘calibration and synchronization.’).” Dkt. 161
at 1.
Dkt. 300 at 5.
Plaintiff does not explain why the MSJ Order
reflects error as to the level of abstraction because it
considered the parties’ similar characterizations of the
claims. It is also revealing that Plaintiff’s newly-

App. 14
proposed characterization of the claims is substantially
similar to what was presented and considered
previously. Plaintiff now contends that the patents
“permit the real-time monitoring of the entirety of
massive electrical systems (including entities that are
not connected to sensory devices), in depth analysis of
such systems, and the real-time mapping of such
systems.” Dkt. 327 at 10. This characterization is not
materially different from what the parties presented in
connection with the motion for summary judgment, i.e.,
monitoring, analyzing, and mapping data. See Elec.
Power Grp, LLC v. Alstom S.A., 830 F.3d 1350,
1353–54 (Fed. Cir. 2016) (citing several opinions to
support the proposition that monitoring and analyzing
information are abstract ideas).
For these reasons, Plaintiff’s contention as to
improper claim construction is not persuasive.
c) Patent Specification
At the hearing on the Motion, Plaintiff’s counsel
characterized the invention as a system that
transforms electric power through a distribution
process. Thus, the claimed steps of updating the virtual
model and filtering the data were identified as ones of
particular importance with respect to patentability.
Plaintiff’s counsel argues that that these steps are
detailed in the specification. For example, the
specification includes 15 algorithms and nearly “6 full
columns of relevant equations” for reviewing the data.
Plaintiff’s counsel argues that this disclosure clearly
establishes that the claims are patent-eligible. These
positions are also presented in the briefing. See Dkt.
327 at 9–13.

App. 15
Claims must be read in light of the specification.
Philips v. AWH Corp., 415 F.3d 1303, 1313 (Fed. Cir.
2005). However, this maxim is limited by the rule that
limitations from the specification should not read be
into the claims. Hill-Rom Servs., Inc. v. Stryker Corp.,
755 F.3d 1367, 1371 (Fed. Cir. 2014) (citing LiebelFlarsheim Co. v. Medrad, Inc., 358 F.3d 898, 904 (Fed.
Cir. 2004)) (“While we read claims in view of the
specification, of which they are a part, we do not read
limitations from the embodiments in the specification
into the claims.”). Here, the claims are stated broadly
and concern abstract concepts. Therefore, the
disclosure in the specification outlining a specific
technological manner in which the abstract concept
may be implemented should not be read into the
claims. Accenture Glob. Servs., GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1345 (Fed. Cir. 2013)
(“the complexity of the implementing software or the
level of detail in the specification does not transform a
claim reciting only an abstract concept into a patenteligible system or method.”); see also Intellectual
Ventures I LLC v. Erie Indem. Co., No. 2017-1147, 2017
WL 5041460, at *5 n.2 (Fed. Cir. Nov. 3, 2017).
Accordingly, Plaintiff’s argument that the
specification supplies the requisite structure, e.g., for
comparing real-time and predicted values, or how the
claims perform each element, is unpersuasive. The
disclosures in the specification cannot transform the
claims.

App. 16
d) Representative Claim
With respect to the argument that the MSJ Order
erred in identifying representative claims of the
Asserted Patents, Plaintiff cites Symantec. There, the
Federal Circuit established the standard for
determining whether a claim is representative.
Plaintiff contends that, under this standard,
“Defendants must prove that the purportedly
representative claim is ‘substantially similar and
linked to the same abstract idea’ to each claims that it
is asserted to represent.” Dkt. 327 at 22 (quoting
Intellectual Ventures I LLC v. Symantec Corp., 838 F.3d
1307, 1316 n.9 (Fed. Cir. 2016)). Plaintiff argues that
the MSJ Order did not apply this standard.3
As an initial matter, Plaintiff seeks to present its
challenge to the representative claim analysis as one
that presents a question of fact rather than a legal
issue. Claim construction and interpretation, are
ultimately questions of law. Teva Pharm. USA, Inc. v.
Sandoz, Inc., 135 S. Ct. 831, 837 (2015) (“[A] judge, in
construing a patent claim, is engaged in much the same
task as the judge would be in construing other written
instruments, such as deeds, contracts, or tariffs.”).

3

Plaintiff refers to its original opposition to the motion for
summary Judgment, in which it challenged Defendants’
identification of certain claims as representative. Dkt. 327 at 23.
This shows that presenting this basis for the claimed error is not
in compliance with the requirement of Local Rule 7-18 that “[n]o
motion for reconsideration shall in any manner repeat any oral or
written argument made in support of or in opposition to the
original motion.” Notwithstanding this shortcoming, the merits of
the argument are addressed.

App. 17
Although in some circumstances a claim interpretation
may require the consideration of questions of fact, as
stated above, in responding to the motion for summary
judgment, Plaintiff did not contend that the facts
presented by Defendants were in dispute.
The MSJ Order considered Claim 1 of the ’608
Patent as representative and then stated:
The other asserted claims vary. However, each
recites the idea of evaluating and reacting to
prediction deviations along with functionally
recited ‘engines’ and ‘components.’ Each also
refers to ancillary steps such as collecting and
evaluating the data and displaying the results of
the evaluation. . . . Despite their length and
number, the asserted claims focus on gathering
information, e.g., real-time and predicted data
values, and analyzing and updating a model
with that information, e.g., comparing the
gathered data and evaluating the prediction
deviations to update the model.
Dkt. 300 at 4–5. Although the MSJ Order did not use
the phrase “substantially similar and linked to the
same abstract idea,” this portion of its analysis reflects
the application of that standard. Thus, the MSJ Order
analyzed all of the claims and made a reasoned
determination that Claim 1 of the ’608 Patent was a
representative claim under the standards established
in Symantec. Therefore, the Motion fails on this
ground.

App. 18
e) Application of § 101
Plaintiff next contests the analysis in the MSJ
Order of Diehr, Electric Power Group, and other related
cases. When the challenges to specific language in the
MSJ Order are viewed in context, they are
unpersuasive. For example, the MSJ Order
distinguished Diehr:
The claims in Diehr recited a particular physical
transformation of a particular article, i.e., “raw,
uncured synthetic rubber, into a different state
or thing.” [Diamond v. Diehr, 450 U.S. 175, 181,
184 (1981)]; see Bilski v. Kappos, 561 U.S. at 604
(“the machine-or-transformation test is a useful
and important clue, an investigative tool, for
determining” eligibility under § 101). Also, the
Diehr claims recited an unconventional physical
solution to a physical problem in the prior art
and used novel physical steps to measure
temperature precisely inside the mold. See
Mayo, 566 U.S. at 80–81. By contrast, the claims
in the Asserted Patents focus on the idea of
comparing live data to predicted data and
updating a prediction model. They are directed
to data manipulation rather than a physical
transformation of an article.
Dkt. 300 at 7.
Plaintiff contends that this analysis “posits” that
“the transformation of a physical article is a
prerequisite to patentability under 35 U.S.C. § 101.”
Dkt. 327 at 16. That is not a correct interpretation of
the MSJ Order. It distinguished Diehr based on the

App. 19
differences in the claims at issue there and in this
action, but did not conclude that a physical
transformation was a per se requirement for
patentability. At the hearing, Plaintiff’s counsel argued
that the asserted patents are analogous to Diehr
because they “manage industrial process[es] for
distribution of power,” which is similar to those at issue
in Diehr that were part of the management of the
industrial process for curing rubber. This argument
overlooks the significance of Diehr’s application of a
specific, technological improvement to a condition that
is present throughout a particular industry. The claims
at issue in this case are unlike those addressed in
Diehr and more analogous to those considered in Flook.
Thus, they simply took abstract data monitoring and
analysis concepts and applied them to a particular
industry. As the MSJ Order explained, this is
insufficient, because simply limiting an invention to a
particular field of use, e.g., electrical systems, is
insufficient to make the claims patent-eligible. Dkt.
300 at 7; see also Parker v. Flook, 437 U.S. 584 (1978).
Plaintiff also relies on Thales Visionix, Inc. v.
United States, 850 F.3d 1343 (Fed. Cir. 2017) and its
application of Diehr. Id. at 1347. Thales included an
analysis of claims directed to “systems and methods
that use inertial sensors in a non-conventional manner
to reduce errors in measuring the relative position and
orientation of a moving object on a moving reference
frame.” 850 F.3d at 1348–49. However, the general
contention that the asserted claims at issue here are
also “directed towards results that had not been
previously achieved and specific technological
improvements,” is an unsubstantiated argument that

App. 20
by itself is insufficient to show that the MSJ Order is
inconsistent with Thales.
Plaintiff next argues that, “it is impossible to
discern from the Court’s Order why the purported
‘information gathering and analysis’ taught in the ’608
Patent, which only represents a portion of the key
invention taught therein, is the same as that addressed
by the Federal Circuit in Electric Power Group.” Dkt.
327 at 14. However, in its discussion of step two of
Alice, the MSJ Order compared certain claim
limitations at issue here to the claims in Electric Power
Group. As part of that analysis, the MSJ Order
explains that “[n]one of these steps differentiates a
process from ordinary mental ones.” Dkt. 300 at 7. The
MSJ Order then identifies other limitations in the
asserted claims and explains why, under the standards
and factual settings of Electric Power Group and other
cases, they fail to add an inventive concept to an
abstract idea. Order at 7.
Plaintiff’s attempt to distinguish the claims at issue
in Electric Power Group and the asserted claims is
unpersuasive. At the hearing, Plaintiff’s counsel
displayed a highlighted version of Claim 1 of the ’608
Patent and argued that only two limitations of that
claim were also among those presented by the claims at
issue in Electric Power Group. Plaintiff’s counsel
emphasized the virtual modeling and filtering
requirements of the asserted claims when compared to
the claims of Electric Power Group. The claims at issue
in Electric Power Group, however, included many more
analogous claim limitations than the two limitations
highlighted by Plaintiff’s counsel. For example, Claim 1

App. 21
of the ’608 Patent recites a “decision engine configured
to compare the real-time data against the predicted
data output to filter out and interpret indicia of
electoral system health and performance.” The claims
in Electric Power Group recite, “deriving a composite
indicator of reliability that is an indicator of power grid
vulnerability and is derived from a combination of one
or more real time measurements or computations of
measurements from the data streams.” 830 F.3d at
1352. As Electric Power Group concluded, “[m]erely
requiring the selection and manipulation of
information—to provide a ‘humanly comprehensible’
amount of information useful for users . . .—by itself
does not transform the otherwise-abstract processes of
information collection and analysis.” Id. at 1355.
Plaintiff also argues that the MSJ Order did not
sufficiently analyze the claims as a whole under step
two of Alice and that in some instances, “an inventive
concept can be found in the non-conventional and nongeneric arrangement of known, conventional pieces.”
Dkt. 327 at 19 (quoting BASCOM Glob. Internet Servs.
v. AT&T Mobility LLC, 827 F.3d 1341, 1349–50 (Fed.
Cir. 2016)). Once again, this argument overlooks the
content of the MSJ Order. It is consistent with the step
two standards. Thus, it reviewed the asserted claims
and evaluated both particular elements as well as the
claims as a whole in determining that the asserted
claims did not recite an inventive concept sufficient to
transform the claims into patentable subject matter.
Dkt. 300 at 6–8. Although Plaintiff provides a detailed
discussion of BASCOM, it does not argue that the
claims at issue here are like those in BASCOM, which
“require an arguably inventive distribution of

App. 22
functionality within a network.” See Elec. Power Grp.,
830 F.3d at 1355–56 (distinguishing BASCOM).
***
For the foregoing reasons, Plaintiff has not
established a basis for error in the MSJ Order.
Therefore, the Motion is DENIED.
2. Motion to Sever
Because the Motion has been denied, and the
parallel motion to dismiss the non-patent claims has
been granted without prejudice to the filing of a further
amended complaint,4 it is appropriate to address
Plaintiff’s request to sever the non-patent causes of
action and enter a judgment as to those claims.
Plaintiff seeks such relief so that it can pursue an
appeal of the MSJ Order at this time, rather than after
there is a final resolution of the non-patent claims. Dkt.
327 at 23–25.
In support of its request, Plaintiff relies on Fed. R.
Civ. P. 21. Rule 21 provides that, “[o]n motion or on its
own, the court may at any time, on just terms, add or
drop a party. The court may also sever any claim
against a party.” Defendants respond that Plaintiff’s
request is controlled by Fed. R. Civ. P. 54(b). Rule 54(b)
provides that a district court may “direct entry of a
final judgment as to one or more, but fewer than all,
claims . . . only if the [C]ourt expressly determines that
there is no just reason for delay.” Defendants argue
that Rule 54(b) presents a “more demanding” standard

4

See Dkt. 361.

App. 23
than the one that applies to determinations under Rule
21, but that “[i]n any event, Plaintiff cannot satisfy the
standard articulated by either rule.” Dkt. 334 at 16.
Plaintiff has not shown that Rule 21 applies here. It
cites Coleman v. Quaker Oats Co., 232 F.3d 1271, 1297
(9th Cir. 2000) for the proposition that “[t]he decision
to sever is within the Court’s broad discretion.” Id.
Coleman, however, addresses severance under Rule
20(b), which applies to the permissive joinder of
parties. Id. Plaintiff also cites Anticancer, Inc. v. Pfizer
Inc., No. 11CV107 JLS RBB, 2012 WL 1019796, at *1
(S.D. Cal. Mar. 26, 2012). The plaintiff in Pfizer filed a
first amended complaint in which it presented new
causes of action for patent infringement against a new
defendant. Id. The new defendant moved to sever one
of these claims and have the matter addressed in
proceedings separate from those that would occur on
the same claim as to another defendant. Id. The district
court denied the motion, after concluding that the
movant had not shown a sufficient basis for the
exercise of discretion to grant this relief pursuant to
Fed. R. Civ. P. 42(b). That rule provides that “[f]or
convenience, to avoid prejudice, or to expedite and
economize” a district court may “order a separate trial
of one or more separate issues, claims, crossclaims,
counterclaims, or third-party claims.”
Rule 54(b) applies to the request at issue here.
Plaintiff seeks to sever the patent claims so that it can
appeal from the MSJ Order now, rather than at the
conclusion of the proceedings on the remaining claims.
Rule 54(b) provides that, “[w]hen an action presents
more than one claim for relief, or when multiple parties

App. 24
are involved, the court may direct entry of a final
judgment as to . . . fewer than all claims . . . if the court
expressly determines that there is no just reason for
delay.” Fed. R. Civ. P. 54(b). To grant such a motion, a
district court is to have concluded that the matter on
which judgment would be entered “is a decision upon a
cognizable claim for relief, and . . . that it is ‘an
ultimate disposition of an individual claim entered in
the court of a multiple claims action.” Curtiss-Wright,
446 U.S. at 7 (quoting Sears, Roebuck & Co. v. Mackey,
351 U.S. 427, 436 (1956). Evaluating just reason for
delay requires a district court to consider “judicial
administrative interest as well as the equities
involves.” Id. at 8. “Judgments under Rule 54(b) must
be reserved for the unusual case in which the costs and
risks of multiplying the number of proceedings and of
overcrowding the appellate docket are outbalanced by
pressing needs of the litigants for an early and
separate judgment as to some claims or parties.”
Morrison-Knudsen Co., Inc. v. Archer, 655 F.2d 962,
965 (9th Cir. 1981). The determination whether to
grant relief under Rule 54(b) is within the discretion of
the district court. Nat’l Union Fire Ins. Co. v. Ready
Pac Foods, Inc., No. CV 09-03220 RSWL (MANx), 2011
WL 1790033, at *2 (C.D. Cal. May 9, 2011).
A consideration of the patent and non-patent claims
shows that there is little, if any, factual or legal
overlap. This is illustrated by the discussion of the nonpatent claims in the recent order on the motions to
dismiss them. Dkt. 361. Although some evidence as to
the operations of certain facilities could be presented as
to each set of claims, that is not a sufficient basis to
deem them ones that overlap substantially.

App. 25
Although the entry of a separate judgment could
result in more than one appeal in this action, that is
not a sufficient basis to deny the requested relief.
Given the absence of factual and legal similarity
between the two sets of claims, there is modest risk
that overlapping appellate issues will be presented
should an appeal proceed on the non-patent issues.
Curtiss-Wright, 446 U.S. at 8. Further, whether such
an appeal will be pursued is not something that can be
determined at this time; the non-patent issues remain
at the pleading stage.
Finally, there is merit to Plaintiff’s contention that
a prompt appellate review of the patent issues is
appropriate. Dkt. 327 at 25. Patents are property rights
that have a limited duration. Thus, more of this time
will be consumed by an appellate process that must
await the conclusion of all proceedings in this matter.
For these reasons, Plaintiff’s request for the entry
of judgment as to the patent claims is GRANTED.
3. Defendant’s Request for Attorney’s Fees
Defendants seek an award of attorney’s fees in
connection with the Motion pursuant to 28 U.S.C.
§ 1927. Dkt. 334 at 22. Section 1927 provides that
“[a]ny attorney or other person admitted to conduct
cases . . . who so multiplies proceedings in any case
unreasonably and vexatiously may be required by the
court to satisfy personally the excess costs, expenses,
and attorney fees reasonably incurred because of such
conduct.” 28 U.S.C. § 1927. “The use of the word
‘may’—rather than ‘shall’ or ‘must’—confers substantial
leeway on the district court when imposing sanctions.

App. 26
Thus, with § 1927 as with other sanctions provisions,
‘[d]istrict courts enjoy much discretion in determining
whether and how much sanctions are appropriate.’”
Haynes v. City & Cty. of San Francisco, 688 F.3d 984,
987 (9th Cir. 2012) (quoting Trulis v. Barton, 107 F.3d
685, 694 (9th Cir. 1995)).
After considering the competing positions of the
parties, and based on the record and proceedings in
this action, it has not been shown that an award of
attorney’s fees is warranted. The issues presented were
sufficiently substantive that the standards imposed by
28 U.S.C. § 1927 for such an award have not been met.
III.

Conclusion

For the reasons stated above, the Motion for
Reconsideration is DENIED. The alternative Motion to
Sever Patent Counts (I-IV) from Non-Patent Counts (VXV), which is deemed a motion pursuant to Fed. R. Civ.
P. 54(b), is GRANTED. On or before December 18,
2017, after meeting and conferring with counsel for
Defendants in an effort to reach an agreement as to the
form of a proposed judgment, Plaintiff’s counsel shall
lodge a proposed judgment. The notice shall indicate
whether the form of judgment is agreed upon or
whether Defendants will be filing any objections by
December 27, 2017.
IT IS SO ORDERED.
________ : _______
Initials of Preparer ak

App. 27

APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. SA CV16-01955 JAK (FFMx)
[Filed July 13, 2017]
Date July 13, 2017
Title Power Analytics Corporation v. Operation
Technology, Inc., et al.
CIVIL MINUTES – GENERAL
Present: The Honorable JOHN A. KRONSTADT,
UNITED STATES DISTRICT JUDGE
Andrea Keifer
Deputy Clerk
Attorneys Present
for Plaintiffs:
Not Present

Not Reported
Court Reporter / Recorder
Attorneys Present
for Defendants:
Not Present

Proceedings:
(IN CHAMBERS) ORDER RE DEFENDANTS’
MOTION FOR PARTIAL SUMMARY
JUDGMENT AS TO INVALIDITY (DKT. 161)
I.

Introduction

Power Analytics Corporation (“Plaintiff” or “PAC”)
alleges that Operation Technology, Inc. d/b/a ETAP,
Osisoft LLC, and Schneider Electric USA, Inc.

App. 28
(collectively “Defendants”) have infringed U.S. Patent
No. 7,693,608 (“the ’608 Patent”), US. Patent No.
7,729,808 (“the ’808 Patent”), U.S. Patent No. 7,286,990
(“the ’990 Patent”), and U.S. Patent 7,840,395 (“the
’395 Patent”) (collectively, “Asserted Patents”). On
February 28, 2017, Defendants moved for partial
summary judgment as to invalidity (“Motion”). Dkt.
161. On May 15, 2017, a hearing on the Motion was
held and the matter was taken under submission. Dkt.
236. For the reasons stated in this Order, the Motion is
GRANTED.
II.

Background

The Asserted Patents are in the field of modeling
electrical systems. They share portions of a common
specification. Each also relates to computer modeling
and focuses on computer simulation techniques with
real-time system monitoring and prediction of electrical
system performance. See ’608 Patent at 1:25-29.
The specifications of the Asserted Patents acknowledge
that it was already known that models could be used to
simulate and predict the performance of monitored
electrical systems. ’608 Patent at 1:31-50 (systems
models have been used for simulation and “predictive
failure analysis”), 8:21-24 (“a variety of conventional
virtual model applications can be used for creating a
virtual system model, so that a wide variety of systems
and system parameters can be modeled.”). These
electrical system models are information that can be
stored in a database. Id. at 8:20-21, Fig. 1 (item 126).
The Asserted Patents purport to introduce the idea of
comparing live, i.e., “real-time,” data to predicted data.

App. 29
This permits an assessment of the system’s health and
performance. Depending on the level of deviation that
is determined, it may also permit an update to the
prediction model. See, e.g., ’608 Patent at 1:41-2:2, 2:3959, 6:48-7:5, 7:24-34, 7:49-60, 8:9-19. According to a
preferred embodiment, the real-time data from sensors
is collected, processed, and compared to the model’s
predictors for those sensors. Id. at 3:1-3, 6:42-58. Any
deviation between live and predicted values is
evaluated and potentially acted upon: “[a] divergence
between the real-time sensor output values and the
predicted values generate either an alarm condition for
the values in question and/or a calibration request that
is sent to the calibration engine 134.” Id. at 8:62-65.
An alarm condition communicates the health and
performance of the monitored system. Id. at 10:31-35.
In response to some deviations, a “calibration request”
is generated to seek updating of the information in the
model: “Once the calibration [request] is generated by
the analytics engine 118, the various operating
parameters or conditions of model(s) 206 can be
updated or adjusted to reflect the actual facility
configuration.” Id. at 8:9-12. Figure 1 of the ’608 Patent
illustrates an embodiment of the system for predictive
analysis of the performance of a monitored system:

App. 30

III.

Analysis
A. Legal Standards
1. Summary Judgment

Summary judgment is appropriate where the record
shows that “there is no genuine issue as to any
material fact and . . . the moving party is entitled to a
judgment as a matter of law.” Fed. R. Civ. P. 56 (a);
Celotex Corp. v. Catrett, 477 U.S. 317, 322–23 (1986).
Material facts are those necessary to the proof or
defense of a claim, as determined by reference to
substantive law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A factual issue is genuine “if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Id.

App. 31
In deciding a motion for summary judgment, “[t]he
evidence of the nonmovant is to be believed, and all
justifiable inferences are to be drawn in his favor.” Id.
at 269. The burden initially falls on the moving party
to show an absence of a genuine issue of material fact
or to show that the non-moving party will be unable to
make a sufficient showing on an essential element of
its case for which it has the burden of proof. Celotex,
477 U.S. at 322–23. Only if the moving party meets its
burden must the non-moving party produce evidence to
rebut the moving party’s claim and create a genuine
issue of material fact. Id. If the non-moving party
meets this burden, then the motion will be denied.
Nissan Fire & Marine Ins. Co. v. Fritz Co., Inc., 210
F.3d 1099, 1103 (9th Cir. 2000).
2. Section 101 Analytical Framework
“Section 101 defines the subject matter that may be
patented under the Patent Act.” Bilski v. Kappos, 561
U.S. 593, 601 (2010). Section 101 provides: “Whoever
invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any
new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and
requirements of this title.” 35 U.S.C. § 101. “Section
101 thus specifies four independent categories of
inventions or discoveries that are eligible for patent
protection: processes, machines, manufactures, and
compositions of matter.” Bilski, 561 U.S. at 601.
Although acknowledging that “[i]n choosing such
expansive terms . . . Congress plainly contemplated
that the patent laws would be given wide scope,” the
Supreme Court has identified three exceptions to

App. 32
Section 101: “laws of nature, physical phenomena, and
abstract ideas.” Diamond v. Chakrabarty, 447 U.S. 303,
308-09 (1980). Although these exceptions are not
required by the statutory text, they are consistent with
the idea that certain discoveries “are part of the
storehouse of knowledge of all men” and are “free to all
men and reserved exclusively to none.” Funk Bros. Seed
Co. v. Kalo Inoculant Co., 333 U.S. 127, 130 (1948).
Consistent with these factors is that “the concern that
drives this exclusionary principle [is] one of preemption.” Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134
S. Ct. 2347, 2354 (2014) (citation omitted).
Consequently, the Supreme Court has required that
“[i]f there is to be invention from such a discovery, it
must come from the application of the law of nature to
a new and useful end.” Funk Bros., 333 U.S. at 130.
These principles apply with equal force to product and
process claims. Gottschalk v. Benson, 409 U.S. 63, 6768 (1972).
Alice is the most recent statement by the Supreme
Court on how these principles are applied. Alice
expanded on the two-step approach for resolving
Section 101 issues first set forth in Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 77 (2012).
In the first step, a court must “determine whether the
claims at issue are directed to one of those patentineligible concepts.” Alice, 134 S. Ct. at 2355 (citing
Mayo, 566 U.S. at 77). If this test is satisfied, then in
the second step the court must ask “[w]hat else is there
in the claims.” Id. This requires consideration of “the
elements of each claim both individually and ‘as an
ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’

App. 33
into a patent-eligible application.” Id. (citing Mayo, 566
U.S. at 78–79). In applying this second step, a court
must “search for an ‘inventive concept’—i.e., an
element or combination of elements that is ‘sufficient to
ensure that the patent in practice amounts to
significantly more than a patent upon the [ineligible
concept] itself.’” Id. (citing Mayo, 566 U.S. at 72–73).
B. Application
1. Alice Step One – Whether the Asserted
Claims are Directed to a Patent-Ineligible
Concept
The step-one inquiry determines whether the claims
“focus on a specific means or method that improves the
relevant technology” or are “directed to a result or
effect that itself is the abstract idea and merely invoke
generic processes and machinery.” McRO, Inc. v.
Bandai Namco Games Am. Inc., 837 F.3d 1299, 1314
(Fed. Cir. 2016). Plaintiff has asserted 138 claims from
the four Asserted Patents. Defendants have chosen
claim 1 of the ’608 Patent as representative.1 Claim 1
reads:

1

Although Plaintiff has not conceded that claim 1 is representative
of the remaining claims, it has not shown how the other
independent claims differ materially from claim 1. Moreover,
although Plaintiff has referred in passing to several of the
dependent claims, it presents no substantive arguments as to their
separate patentability.

App. 34
1. A system for filtering and interpreting realtime sensory data from an electrical system,
comprising:
a
data
acquisition
component
communicatively connected to a sensor
configured to acquire real-time data output
from the electrical system;
a power analytics server communicatively
connected to the data acquisition
components, comprising,
a virtual system modeling engine
configured to generate predicted data
output for the electrical system utilizing
a virtual system model of the electrical
system,
an analytics engine configured to monitor
the real-time data output and the
predicted data output of the electrical
system, the analytics engine further
configured to initiate a calibration and
synchronization operation to update the
virtual system model when a difference
between the real-time data output and
the predicted data output exceeds a
threshold, and
a decision engine configured to compare
the real-time data output against the
predicted data output to filter out and
interpret indicia of electrical system
health and performance; and

App. 35
a client terminal communicatively connected
to the power analytics server and configured
to display the filtered and interpreted
indicia.
’608 Patent, claim 1.
The other asserted claims vary. However, each recites
the idea of evaluating and reacting to prediction
deviations along with functionally recited “engines” and
“components.” Each also refers to ancillary steps such
as collecting and evaluating the data and displaying
the results of the evaluation.
The characterizations of the asserted claims by each
side reflect the idea of evaluating and reacting to
prediction deviations:
• Plaintiff: “compare predicted calculated values
generated by the virtual system model against
real-time data received from the sensors,
updating the virtual system model when the
difference exceeds a threshold, to ensure that
the virtual system model reflects the system’s
real-time operation.” Dkt. 181 at 3.
• Defendants: “the idea of comparing live (realtime) data to predicted data to interpret a
monitored system’s health and performance
(e.g., identify an alarm condition) and,
depending on the level of deviation, to update
the prediction model (e.g., by ‘calibration’ or
‘calibration and synchronization.’).” Dkt. 161 at
1.

App. 36
Despite their length and number, the asserted claims
focus on gathering information, e.g., real-time and
predicted data values, and analyzing and updating a
model with that information, e.g., comparing the
gathered data and evaluating the prediction deviations
to update the model. This type of information gathering
and analysis has been addressed by the Federal
Circuit. It has held that it falls into a class of claims
directed to a patent-ineligible concept. Elec. Power
Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016) (“we have treated collecting information,
including when limited to particular content (which
does not change its character as information), as within
the realm of abstract ideas.”).
Further, the claims recite the idea as a function or
result, rather than a particular way of performing that
function or achieving that result. This is another
indicator of abstractness. Cf. Elec. Power Grp., 830
F.3d at 1351 (“The claims, defining a desirable
information-based result and not limited to inventive
means of achieving the result, fail under § 101.”);
Affinity Labs of Texas, LLC v. Amazon.com, Inc., 838
F.3d 1266, 1269 (Fed. Cir. 2016) (“The purely
functional nature of the claim confirms that it is
directed to an abstract idea, not to a concrete
embodiment of that idea.”). For example, claim 1 of the
’608 Patent recites that “an analytics engine” is
“configured to initiate a calibration and
synchronization operation to update the virtual system
model when a difference between the real-time data
output and the predicted data output exceeds a
threshold.” The language focuses on the result rather
than how the operation is achieved. Similarly, claim 1

App. 37
recites that “a decision engine” is “configured to
compare the real-time data output against the
predicted data output to filter out and interpret indicia
of electrical system health and performance.” Again, it
does not specify how the engine is configured. None of
the claims recites a particular structure for how to
compare the real-time and predicted values, how to
pick the threshold values or how to update the virtual
model.
Plaintiff argues that the inventions at issue provide a
concrete solution to problems that burdened the
electrical systems industry for decades, “namely, the
inability to accurately analyze, predict and model the
operations of an electrical system because the system
model was based upon a stale, historical snapshot,
taken at a single point in time.” Dkt. 181 at 9-10.
Specifically, Plaintiff argues that the Asserted Patents
solved the problems in the field in a specific way: “the
creation of a virtual system model that is kept up to
date through the use of the (1) threshold; (2) calibration
and (3) synchronization elements.” Id. at 13. Plaintiff
further notes that the PTO identified these elements as
being especially novel, and determined that the prior
art did not suggest or disclose these key elements. (Id.
at 6, 13-14.)
Plaintiff’s arguments conflate patent eligibility (35
U.S.C. § 101) with anticipation (§ 102) and obviousness
(§ 103). Novelty of a claim’s abstract idea does not
defeat invalidity under § 101. New abstract ideas are
no more valid than old ones: abstract ideas are
ineligible for patenting even if they are “novel and
useful,” Parker v. Flook, 437 U.S. 584, 588, 591 (1978),

App. 38
and “narrow and specific,” Mayo Collaborative Servs. v.
Prometheus Labs., Inc., 566 U.S. 66, 88 (2012). See also,
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1151 (Fed. Cir. 2016) (“[A] claim for a new
abstract idea is still an abstract idea. The search for a
§ 101 inventive concept is thus distinct from
demonstrating § 102 novelty.”) (Emphasis in original).
Indeed, Plaintiff acknowledges that “a Section 101
analysis is not the same as a prior art invalidity
analysis.” Dkt. 181 at 7.
For claims implemented on a computer, the Federal
Circuit has determined that it is “relevant to ask
whether the claims are directed to an improvement to
computer functionality versus being directed to an
abstract idea.” Enfish LLC v. Microsoft Corp., 822 F.3d
1327, 1335 (Fed. Cir. 2016). Here, the Asserted Patents
purport to solve a data problem, i.e., a discrepancy
between the real-time and data predicted using a
model, not a computer problem. Neither the problem
nor the solution is rooted in computer technology. The
purported solution offered by the claims to the problem
of outdated information is to update the model so that
it fits more accurately within the real-world data.
There is nothing in the claim to suggest that, once the
models have been updated, the computer system will be
any more efficient. Instead, like the patents in Electric
Power Group, the Asserted Patents claim a purported
advance in uses for existing computer capabilities, not
new or improved computer capabilities. See Elec. Power
Grp., 830 F.3d at 1354. “The focus of the claims is not
on such an improvement in computers as tools, but on
certain independently abstract ideas that use
computers as tools.” Id.

App. 39
2. Alice Step Two – Whether the Asserted
Claims Included an “Inventive Concept”
As noted, the second inquiry of the Alice test is whether
the claims found to be directed to an abstract idea
contain any inventive concept to transform the abstract
idea into a patent-eligible subject matter. Ultramercial,
Inc. v. Hulu, LLC, 772 F.3d 709, 715 (Fed. Cir. 2014).
To satisfy this prong, the claims must include
additional features that are significantly beyond “wellunderstood, routine, conventional activity” or a simple
“instruction to implement or apply the abstract idea on
a computer.” Id. (quoting Mayo, 566 U.S. at 79.);
Bascom Glob. Internet Servs., Inc. v. AT&T Mobility
LLC, 827 F.3d 1341, 1349 (Fed. Cir. 2016).
Routine, conventional, or generic elements or
combinations of elements do not satisfy the second
step. Alice, 134 S. Ct. at 2359 (claim steps requiring
“electronic recordkeeping” and “use of a computer to
obtain data, adjust account balances, and issue
automated instructions” do “no more than require a
generic computer to perform generic computer
functions.”). Neither does “claiming the improved speed
or efficiency inherent with applying the abstract idea
on a computer provide a sufficient inventive concept.”
Intellectual Ventures I LLC v. Capital One Bank (USA),
792 F.3d 1363, 1367 (Fed. Cir. 2015).
In Electric Power Group, the court noted that a field-ofuse restriction, “limiting the claims to the particular
technological environment of power-grid monitoring,”
is insufficient. 830 F.3d at 1354. The same rule applies
to collecting and analyzing specific “types of
information” from specific types of “information

App. 40
sources” (including “real time measurements”) because
“merely selecting information, by content or source, for
collection, analysis, and display does nothing
significant to differentiate a process from ordinary
mental processes, whose implicit exclusion from § 101
undergirds the information-based category of abstract
ideas.” Id. at 1355.
As in Electric Power Group, the field-of-use restrictions
in the asserted claims, which limits them to the
technological environment of electrical system
monitoring, is insufficient to save them. The result is
the same as to the recitation in the claims of the
following: (i) various types of information content
gathered and used, e.g., “real-time data”, “predicted
data,” “virtual system model,” contingency event,”
“environmental data,” “real time domain model data”,
“real-time system reliability data, and “real time
model”; and (ii) various sources of such information,
e.g., “sensors,” “data acquisition component,” “virtual
system modeling database”. None of these steps
differentiates a process from ordinary mental ones.
Similar to the “displaying” steps in the invalidated
claims in Electric Power Group, many of the asserted
claims recite displaying, reporting, or otherwise
outputting various results of the analysis and
evaluation, e.g., “display” an alarm condition, “forecast
an aspect,” generate a “warning message,” report arcflash-event analyses, generate a “predictive analysis
report,” “generate an “operational stability” report, and
generate “a report that summarizes the results of the
simulation.” Dkt. 161 at 22. However, reporting
analysis results, without more, is more appropriately

App. 41
characterized as an insignificant “post-solution
activity” that does not support the invention having an
inventive concept. See Flook, 437 U.S. at 590.
A few claims recite a “machine learning engine” (’608
claims 16-17; ’395 claims 1, 3), but the patents describe
this in functional terms, e.g., ’608 Patent, Fig. 22;
37:35-63, without purporting to add any particular
inventive implementation. Cf. In re TLI Commc’ns LLC
Patent Litig., 823 F.3d 607, 613-15 (Fed. Cir. 2016) (in
view of the patent’s “abstract functional descriptions”
of the claims’ “telephone unit,” “server,” “image
analysis unit,” and “control unit,” they “fail to add an
inventive concept sufficient to bring the abstract idea
into the realm of patentability.”).
Plaintiff argues that the Asserted Patents are similar
to the claims that were at issue in Diamond v. Diehr
and should be sustained on that basis. Dkt. 181 at 17.
In Diehr, the patents recited a process of curing
synthetic rubber that ensured the product of “molded
articles which are properly cured.” Diamond v. Diehr,
450 U.S.175, 177 (1980). The claim used a “well-known”
mathematical equation, but it applied it in a process
designed to solve a technological problem in
“conventional industry practice.” Id. at 177, 178. The
invention in Diehr used a “thermocouple” to record
constant temperature measurements inside the rubber
mold. The measurements were fed into a computer,
which repeatedly recalculated the remaining cure time
by using the mathematical equation. Id. at 178-179.
These additional steps “transformed the process into an
inventive application of the formula.” Mayo, 566 U.S. at
81.

App. 42
The claims in Diehr recited a particular physical
transformation of a particular article, i.e., “raw,
uncured synthetic rubber, into a different state or
thing.” 450 U.S. at 184; see Bilski v. Kappos, 561 U.S.
at 604 (“the machine-or-transformation test is a useful
and important clue, an investigative tool, for
determining” eligibility under § 101). Also, the Diehr
claims recited an unconventional physical solution to a
physical problem in the prior art and used novel
physical steps to measure temperature precisely inside
the mold. See Mayo, 566 U.S. at 80–81. By contrast, the
claims in the Asserted Patents focus on the idea of
comparing live data to predicted data and updating a
prediction model. They are directed to data
manipulation rather than a physical transformation of
an article.
The asserted claims are more like those in Parker v.
Flook, 437 U.S. 584 (1978). There, the claimed idea was
to collect data from a monitored industrial system, and
analyze and compare it with other data. Depending on
the outcome of that analysis, the claimed idea would
update an alarm limit responsible for identifying alarm
conditions to users. Id. at 596-98. Like the Flook
claims, the claims here do not recite either
unconventional physical elements or a functional
relationship between abstract and physical elements.
Rather, the “threshold, calibration, and
synchronization” elements are abstract, generic steps
that describe desired functions or outcomes, but do not,
individually or in combination, constitute “inventive
concepts.”

App. 43
For these reasons, none of the claim elements identified
by Plaintiff exceeds the abstract idea of evaluating and
reacting to prediction deviations. Therefore, the
Asserted Patents are ineligible under § 101.
IV.

Conclusion

For the reasons stated in this Order, the Motion is
GRANTED.
IT IS SO ORDERED.
________ : _______
Initials of Preparer ak

App. 44

APPENDIX E
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1428
[Filed March 21, 2019]
_____________________________________________
POWER ANALYTICS CORPORATION,
)
Plaintiff-Appellant
)
)
v.
)
)
OPERATION TECHNOLOGY INC, DBA
)
ETAP, SCHNEIDER ELECTRIC USA, INC.,
)
Defendants-Appellees
)
)
OSISOFT, LLC,
)
Defendant
)
____________________________________________ )
Appeal from the United States District Court for the
Central District of California in No. 8:16-cv-01955JAK-FFM, Judge John A. Kronstadt.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.

App. 45
PER CURIAM.
ORDER
Appellant Power Analytics Corporation filed a
combined petition for panel rehearing and rehearing en
banc. The petition was referred to the panel that heard
the appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on March 28,
2019.
FOR THE COURT
March 21, 2019
Date
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

